<html>
<title> - BANGLADESH'S FRACTURE: POLITICAL AND RELIGIOUS EXTREMISM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





        BANGLADESH'S FRACTURE: POLITICAL AND RELIGIOUS EXTREMISM

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2015

                               __________

                           Serial No. 114-46

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                ______

                     U.S. GOVERNMENT PUBLISHING OFFICE 

94-391 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                                       
                                
                                
                                
                                
                                
                                
                                
                                
                                
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     MATT SALMON, Arizona Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             TULSI GABBARD, Hawaii
JEFF DUNCAN, South Carolina          ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            GRACE MENG, New York
SCOTT DesJARLAIS, Tennessee













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Lisa Curtis, senior research fellow, Asian Studies Center, 
  The Davis Institute for National Security and Foreign Policy, 
  The Heritage Foundation........................................     5
Mr. Ali Riaz, Ph.D., professor, Department of Politics and 
  Government Chair, Illinois State University....................    16
Mr. Jay Kansara, director, Government Relations, Hindu American 
  Foundation.....................................................    32
Mr. Steven D. Fleischli, president, U.S.-Bangladesh Trade and 
  Relations Association..........................................    42
Alyssa Ayres, Ph.D., senior fellow for India, Pakistan, and South 
  Asia, Council on Foreign Relations.............................    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Lisa Curtis: Prepared statement..............................     7
Mr. Ali Riaz, Ph.D.: Prepared statement..........................    18
Mr. Jay Kansara: Prepared statement..............................    35
Mr. Steven D. Fleischli: Prepared statement......................    45
Alyssa Ayres, Ph.D.: Prepared statement..........................    54

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    80

 
        BANGLADESH'S FRACTURE: POLITICAL AND RELIGIOUS EXTREMISM

                              ----------                              


                        THURSDAY, APRIL 30, 2015

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2255 Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. Good afternoon. The subcommittee will come to 
order. We often speak of the rebalance or pivot to Asia solely 
in terms of the large nations such as China and India.
    But today we are going to turn our attention to Bangladesh, 
a nation that may be discussed less often than its larger 
neighbors but is nevertheless significant to our increased 
engagement in the region.
    Today, we are going to discuss why it is critical that we 
keep a close eye on Bangladesh and why Bangladesh's security 
has significant bearing on regional security, thus on our 
efforts to rebalance.
    But first, I would like to take a moment of silence for 
those whose lives were lost and destroyed in the tragic 
earthquake this past weekend, affecting so many in the nations 
of Nepal, India as well as Bangladesh.
    Thank you. Okay. Bangladesh does have a unique story, a 
very inspirational one. A moderate voice in the Islamic world 
that is home to 166 million people with a Muslim majority, all 
within a geographic space the size of Iowa.
    While roughly 80 percent of the population lives on less 
than $2 a day, we recognize the earnest advances that the 
country has made with consistent GDP growth averaging 6.2 
percent over the last decade, something that we would love to 
have right now.
    Bangladesh's fractious democracy is dominated by two 
competing political factions--the Awami League, led by Prime 
Minister Sheikh Hasina, currently in power, and Bangladesh 
National Party, or BMP, led by former Prime Minister Khaleda 
Zia.
    These powerful leaders rule their parties like fiefdoms and 
corruption continues to be a major issue. Tensions between the 
two parties has often been high but since the most recent 
parliamentary elections in 2014 the escalation of violence 
between the two sides has been especially appalling.
    Polarization between Awami League and BMP has reached new 
levels and politically motivated attacks have begun to target 
everyday people, including commuters and students.
    We have seen assaults on journalists and horrific firebomb 
attacks on buses. Today, I hope to hear from our distinguished 
panelists about the violence committed by both parties to draw 
attention to this issue and make clear our state of disdain for 
the use of any type of violence as a means to convey a 
political message.
    Both parties should know that democracy requires more than 
just lip service. If Bangladesh wants to refer to its own 
political system as a democracy it must be a democracy in 
substance.
    But since the Awami League took power in January 2009, 
significant changes to the electoral process were made 
including the removal of independent and neutral caretaker 
government during elections.
    This led to the boycott of the 2014 elections by the BMP 
and sparked the current spates of violence that we are seeing 
today. As it now stands, Bangladesh is in the midst of a 
serious political security crisis.
    Just this past Tuesday, the BMP once again boycotted 
elections, this time at the municipal level citing polling 
irregularities. The U.S. Embassy in Bangladesh echoes our 
concerns saying, we are disappointed by widespread, first-hand 
and credible reports of vote rigging, intimidation and 
violence.
    Incidents like this may lead to a further break down of 
order that could open space for Islamic militants or could 
force the military to take control once again.
    Today, we will discuss both political and religious 
extremism. To be sure, there are links to draw between them. 
However, it is also important to distinguish between the 
actions attributable to political and religious violence.
    Bangladesh has been a security partner in the combat 
against extremist terrorist groups as they currently have eight 
or more major Islamic extremist groups within their borders, 
many with ties to international terrorist networks.
    In addition to tackling terrorism through law enforcement, 
Bangladesh also uses strategic communication to counter violent 
extremism especially among youth through Madrassas and other 
religious institutions.
    Bangladesh is a current partner and a key partner in the 
struggle against Islamic extremism and we hope to continue this 
collective effort with Bangladesh and other valuable partners 
throughout the world. The Bangladesh government has also 
established the Rapid Action Battalion, or RAB, which has been 
very effective in counter terrorism efforts.
    However, during changes in political power the two 
competing parties have been known to use the RAB for 
politically motivated attacks on the opposition.
    We need to pay close attention to these types of junctures 
where a political crisis hampers the noble counter terror 
efforts in Bangladesh and do whatever possible to ensure that 
the domestic political turmoil does not negatively impact this 
critical mission.
    At our hearing today, and as our committee continues to 
engage with the Asia Pacific, I hope our members keep in mind 
the significance of Bangladesh for the United States.
    Bangladesh's geographic position at the crossroads of 
India, China and the rest of South Asia is of growing 
importance. For example, Bangladesh has long been a trading 
partner with the United States and we enjoy amiable trade 
relations through ongoing bilateral trade investment agreement.
    We also have a strong interest in supporting our fellow--a 
fellow democracy, particularly in the Muslim world. What really 
is at stake in Bangladesh is the struggle for the ideological 
foundation of a nation between those that would emphasize 
secular ideas and Bengali ethnic identity and those that seek a 
firm Islamist ideology.
    In Bangladesh there is great potential. We have the 
opportunity to support a society that embraces nonviolent 
competition and one that shirks religious extremism.
    We should signal to the country that we support ideals such 
as respect for human dignity and freedom of expression no 
matter one's political disposition, creed or religion.
    The people of Bangladesh deserve that. This is a timely 
discussion and I hope to gather valuable information and ideas 
today to better inform Congress' policy toward Bangladesh and I 
give my sincere thanks to my colleagues and our witnesses for 
joining me today, and I yield to the ranking member.
    Mr. Sherman. Thank you, Mr. Chairman. Thank you for 
remembering the people of Nepal at the beginning of this 
hearing.
    Bangladesh is the second largest predominantly Muslim 
country in the world. It is also a country with a nearly 10 
percent Hindu minority. A hundred and sixty-six million people 
of whom 60 million live in extreme poverty.
    The United States needs to dedicate ourselves to human 
rights, democracy and economic development in Bangladesh and 
that includes support for those who will protect the workers 
who all too often we see in a particular disaster or a caved in 
building.
    But we have to remember that there are still less 
spectacular destruction of ongoing poverty and labor abuse. It 
may not be the kind of scene that gets international press 
attention, but 60 million people living in extreme poverty 
deserve our attention.
    And there are 200 labor unions in Bangladesh but we need to 
see more support for organizations that protect workers there 
and, of course, it is up to consumers to be aware of the effect 
of their consumption decisions.
    We also have a stake in Bangladesh achieving a moderation 
and not being taken down the road of some would call it Islamic 
extremism, some would call it a corruption of Islam.
    In particular, note that Jamaat-ul-Mujahideen Bangladesh, 
the JMB group, has reportedly infiltrated from Bangladesh into 
border districts of India to make contacts with sympathizers 
and several madrassas focusing on recruitment and fund-raising.
    It has sought to recruit 150 men to carry out attacks and 
sent 50 improvised explosives to Dhaka and Assam areas as the 
Islamic State has grown and we are seeing both it and al-Qaeda 
trying to bolster their ranks in Bangladesh.
    In addition, Bangladesh faces a particular challenge 
because over 200,000 Rohingya from Burma, or Myanmar, have fled 
into Bangladesh, feeling persecution in their home country, and 
of course this creates an opening for the terrorist groups to 
try to recruit, to try to turn refugees into--exploit the anger 
and try to turn them into terrorists.
    This is, of course, an ongoing problem and according to the 
Hindustan Times, pan-Islamic groups have attracted a few of 
these individuals, promising them to help carry out retribution 
against Myanmar.
    The fact remains that Bangladesh's government and, of 
course, it is split and there we do have significant concerns 
about democracy there. But the Bangladeshi government has been 
a partner of the United States in fighting terrorism.
    I look forward to hearing from our witnesses as to how we 
can see a Bangladesh that protects its Hindu minority, that is 
a partner for us against Islamic extremist terrorism and is 
growing both economically and in terms of its dedication to 
democracy and human rights, and I yield back.
    Mr. Salmon. Thank you, Ranking Member.
    We are in the appropriations season and it is incredibly 
chaotic today. We are going to be called for a vote probably in 
the next 10 minutes and so I know that members want to make 
opening statements and I am trying to juxtapose everything 
today and I am going to deeply apologize that we are going to 
just limit the opening statements to myself and the ranking 
member just in the interests of time and I do want to get to 
the panel very badly.
    That is why we are here, and for those members I deeply 
apologize. I thought we were going to have a little bit more 
flexibility today than we are having and this is so important.
    So I would like to introduce the witnesses. We are very 
fortunate to have Lisa Curtis, a senior research fellow from 
Heritage Foundation's Asian Study Center, Dr. Ali Riaz--is it 
Riaz? Did I pronounce that right? Joins us from Illinois State 
University where he is chair of the Department of Politics and 
Government. Thank you.
    Jay Kansara is here from the Hindu American Foundation 
where he is the director of government relations and I 
understand that you recently returned from Bangladesh, and 
Steven Fleischli, correct? Joins us from Bangladesh Trade and 
Relations Association where he is president, and Alissa Ayres 
joins us from the Council on Foreign Relations where she is a 
senior fellow for India, Pakistan and South Asia.
    And without objection, the witnesses' full prepared 
statement will be made part of the record and members will have 
5 calendar days to submit statements, questions and extraneous 
materials for the record.
    Ms. Curtis.

  STATEMENT OF MS. LISA CURTIS, SENIOR RESEARCH FELLOW, ASIAN 
 STUDIES CENTER, THE DAVIS INSTITUTE FOR NATIONAL SECURITY AND 
            FOREIGN POLICY, THE HERITAGE FOUNDATION

    Ms. Curtis. Yes, thank you very much for inviting me here 
to testify on Bangladesh--a very important issue. I commend 
your subcommittee for bringing this issue to everyone's 
attention.
    The political tensions between the ruling Awami League 
government and the BNP opposition are threatening to derail 
economic and social progress in the country and certainly the 
brutal murders of two liberal bloggers in the last 2 months has 
reminded us of the threat of Islamist extremism in Bangladesh 
and the possibility that extremists could take advantage of the 
current political unrest.
    On January 5th, the opposition engaged in protest 
demonstrations. This was on the anniversary of the flawed 
national election of last year. The protests quickly turned 
violent and particularly disturbing was a series of petrol 
bombings on buses that killed or injured hundreds of innocent 
bystanders.
    As many as 7,000 opposition activists have reportedly been 
detained in jail and 20 opposition supporters have allegedly 
died in extrajudicial circumstances. A senior opposition 
official, Salahuddin Ahmed, has reportedly disappeared from him 
home on March 10th after being taken by men who identified 
themselves as police.
    Unfortunately, Tuesday's municipal elections in Dhaka and 
Chittagong have also been marred by allegations of rigging and 
voter intimidation and the opposition pulled out of those 
elections midway through the process.
    There had been hope that these municipal elections would 
help restore faith in the democratic process but instead they 
seem to have further vitiated the atmosphere between the 
government and the opposition.
    The U.S. had previously held Bangladesh up as a model of a 
large Muslim country with a functioning democracy. Moreover, 
Bangladesh has made significant social and economic gains over 
the last decade.
    Life expectancy has increased, infant mortality has 
decreased, female literacy has doubled and economic growth has 
averaged around 6 percent annually.
    All of this is now at risk. The political unrest is 
occurring at the same time that the government is cracking down 
on the leading Islamist political party, the Jamaat-e-Islami.
    The Jamaat is currently banned from participating in 
elections and its top leaders have either been executed or are 
facing death sentences for their roles in siding with Pakistani 
forces during Bangladesh's 1971 war for independence.
    Now, the trials of the Jamaat leaders have found some favor 
with a segment of the Bangladeshi population, especially the 
young urban middle class and we saw this during the Shahbag 
movement in 2013 when protestors gathered to object to what 
they considered overly lenient sentencing of those accused of 
war crimes.
    Sheikh Hasina's efforts to crack down on radical Islamists 
and to emphasize the secular principles of the country's 
founding are certainly welcome.
    But closing down the Jamaat entirely could backfire. The 
government should consider whether cracking down on peaceful 
avenues of political participation could reinforce the violent 
elements of Jamaat and therefore make the problem even worse.
    So how can the U.S. help Bangladesh avoid further political 
unrest? First, I think the U.S. needs to be more proactive in 
encouraging dialogue between the government and the opposition 
and this includes being more vocal in criticizing both the 
opposition's violent tactics and the government's failure to 
provide adequate political space for the opposition.
    Second, the U.S. should facilitate a civil society dialogue 
that involves the younger generation and is aimed at empowering 
local groups to advocate for nonviolent politics.
    Such a dialogue could involve a variety of political, 
economic and religious civic organizations and could even 
involve the Jamaat-e-Islami younger members and emphasize the 
importance of respect for religious minorities and ensuring the 
political process is reflective of modern Bangladesh's 
achievement including the increase in Bangladeshi women's 
participation in the social, economic and political life of the 
country.
    Thirdly, the U.S. should incentivize Sheikh Hasina to 
create the conditions for political stability through the 
prospect of greater U.S. trade and investment.
    The U.S. is the biggest export market for Bangladesh. So, 
certainly, expanding those exports and attracting more U.S. 
investment is a goal for Dhaka and the U.S. should make clear 
that political stability returning to the country would 
encourage Washington to facilitate more trade delegations to 
the country.
    There is much at stake in the political future of 
Bangladesh and the U.S. has to be more proactive in convincing 
the government and opposition to resolve differences through 
dialogue, noting that both political parties stand to suffer if 
political tensions continue.
    Thank you.
    [The prepared statement of Ms. Curtis follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    Dr. Riaz, I think that you will probably be the last one 
that testifies before we end up having to go vote if the vote 
schedule stays the way it has been predicted.
    So could you go ahead and make a statement? And then if 
that is--we will probably get buzzed, you know, while you are 
speaking but we will wait until you conclude to leave.
    Thank you. And it won't be that we left because we didn't 
like what you said.

  STATEMENT OF MR. ALI RIAZ, PH.D., PROFESSOR, DEPARTMENT OF 
    POLITICS AND GOVERNMENT CHAIR, ILLINOIS STATE UNIVERSITY

    Mr. Riaz. Thank you. Thank you, Chairman Salmon, Ranking 
Member--Congressman Sherman and the committee. Thank you for 
the invitation to discuss the political situation in 
Bangladesh.
    In the past 1\1/2\ years, Bangladeshi politics has 
experienced a tumultuous period. The period is marked by two 
episodes of heightened violence--that is in late 2013 and early 
2015, a flawed national election in 2014, unremitting heavy-
handed actions by the government between 2013 and 2015 and 
highly-rigged city corporation elections and actions which took 
place in 28th of February, 2015, all of which raised serious 
concerns regarding the future trajectory of the country's 
political, particularly the prospects of democracy.
    The uncertainty that has gripped the nation since 2011 has 
not disappeared. It is the absence of the trust among the major 
political parties, lack of consensus on the modus operandi of 
holding an inclusive national election and dearth of 
institutions to protect the fundamental rights of the citizens 
including exercising the right to vote freely that together 
sustains this uncertainty.
    In the past 3 years, a number of disturbing trends have 
emerged which reflect the sorry state of the human rights 
situation in the country. In recent years and particularly 
since 2014, the restrictions on freedom of assembly, movement 
and speech have shrunk the democratic space significantly. 
Violence and intimidation have become the primary modes of 
political expression.
    The belligerent rhetoric of the ruling party and its 
supporters contributed to the likelihood of the emergence of 
regimented system of governance akin to authoritarianism.
    Unrestrained use of force on the part of the government 
along with the high degree of surveillance, growing number of 
extrajudicial killings and enforced disappearances have created 
a culture of fear.
    The opposition parties, particularly the major opposition, 
BNP, have either participated or encouraged violence as a 
principal means to press for its demands for a fresh national 
election. The nature and scope of violence has changed for 
worse.
    Innocent citizens have been targeted. It is evident that 
the opposition's tactics have failed to mobilize citizens in 
its support. There have been no public inquiries to find the 
perpetrators of these arson attacks and bring them to justice.
    The government ruling party and the regime supporters have 
tried to justify severe measures in the name of restoration of 
peace and stability at the expense of democracy in general and 
particularly the fundamental rights of the citizens. 
Furthermore, the regime supporters have also argued that 
economic development should be privatized over democracy.
    Both are highly discredited approaches and should be noted 
in earnest. The relentless belligerent posturing have 
contributed to the polarization of this society and encouraged 
extremists rhetoric, resulting in further violence.
    This allows non-state actors to take advantage of the 
situation and pursue their radical agenda. The brutal murders 
of bloggers Rajib Haider in 2013, Avijit Roy and Washiqur 
Rahmanin in 2015 demonstrate that political uncertainty, 
heightened violence and absence of the rule of law provides the 
environment in within which militants can fester and become a 
threat to society.
    These incidents also show that the country has become a 
dangerous place for those who dare to make critical comments 
about Islam. Islamist militants groups such as Ansarullah 
Bangla Team or Harkat-ul Jihadal Islam find opportunity when 
the state's security apparatuses lose their focus.
    Bangladesh has achieved remarkable success since 2007 in 
curbing militancy. But democracy deficit, recurrence of 
violence within mainstream politics and state repression may 
undermine this achievement.
    Now what can be done? I would quote Professor Rehman 
Siobhan, a scholar of Bangladesh--``Move to restore 
predictability to the lives of the people has to move forward 
through the political process rather than dependence on street 
violence or the coercive power of the state. The end result 
must be a political settlement which recreates a more inclusive 
political order underwritten by a fairly acquired democratic 
mandate.''
    To achieve these goals, it is imperative, number one, steps 
are taken to ensure a fairly acquired democratic mandate for 
governance.
    Erosion of fundamental rights must be stopped and 
democratic space for democratic constitutional parties are 
restored, freedom of assembly, movement and speech guaranteed 
in the constitution be adhered in essence and to the letter, 
unaccountable and excessive use of state's coercive power 
including extrajudicial killing and enforced disappearance be 
brought to an end.
    All parties, including the opposition parties, 
unequivocally denounce violence as a means to achieve political 
goals and, finally, institutions to protect the fundamental 
rights of the citizens including exercising the right to vote 
freely be restored.
    With that, I think at this point the United States and the 
international community has a responsibility to ensure that 
these things are done and done in a fairly manner so that 
Bangladesh should not be running into a spiral which would take 
it in a downward slope.
    Thank you.
    [The prepared statement of Mr. Riaz follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you, Dr. Riaz.
    It looks like we are going to get to another panelist.
    Mr. Kansara.

 STATEMENT OF MR. JAY KANSARA, DIRECTOR, GOVERNMENT RELATIONS, 
                   HINDU AMERICAN FOUNDATION

    Mr. Kansara. Thank you, Mr. Chairman, Ranking Member and 
respected members of the subcommittee. It is a privilege for me 
to appear before you today.
    The Hindu American Foundation, a nonprofit advocacy and 
human rights organization, has been closely monitoring the 
political and human rights crisis in Bangladesh for several 
years.
    I would like to acknowledge the tremendous work of my 
colleague, HAF senior director and human rights fellow, Samir 
Kalra, who is the author of our annual human rights report.
    Bangladesh has been engulfed by political turmoil and large 
scale violence since 2013. While the Awami League government 
has contributed to this unrest through its repressive policies, 
the primary responsibility for the violence and instability 
specifically targeting minorities falls upon the main 
opposition party, the Bangladesh Nationalist Party, and its 
largest coalition partner, the Jamaat-e-Islami.
    Earlier this year, I visited Dhaka to survey the conditions 
of religious minorities. On this trip I witnessed first hand 
the political unrest and its detrimental impact on the daily 
lives of ordinary Bangladeshis, specifically referring to the 
hartals.
    During this trip where I was joined by HAF volunteer, a 
native Bengali speaker, Utsav Chakrabarti, we also met with 
dozens of civil society leaders, human rights activists, 
minority groups and three members of Parliament, all of whom 
expressed serious concern with the rising tide of religious 
intolerance, extremism and a burgeoning threat of pro-ISIS 
activity in the country.
    The escalation of attacks on religious minorities which 
began in 2013 were still fresh on the minds of Hindus, 
Christians, Buddhists and secularists whom we met with.
    In late January 2013, after the International Crimes 
Tribunal began announcing convictions of high-level Jamaat and 
BNP officials, supporters of these organizations engaged in 
large-scale violence and rioting that plagued Bangladesh for 
several weeks in a campaign of intimidation directed 
specifically toward Hindus.
    This resulted in more than 100 deaths and hundreds of 
injuries. Jamaat and Islami Chhatra Shibir activists reportedly 
also set off bombs in the capital city of Dhaka aimed at 
causing panic among ordinary citizens.
    The Hindu community in particular was systematically 
attacked, more than 47 temples destroyed, approximately 1,500 
homes vandalized or burnt to the ground and in the aftermath of 
this violence Amnesty International also noted that the 
Bangladesh Hindu community was at extreme risk.
    The Hindu majority--excuse me, the Hindu minority were 
similarly targeted by Jamaat-e-Islami and Islami Chhatra Shibir 
in the run-up to the elections during 2014 when an estimated 
495 homes were also damaged and 585 shops were looted and 169 
temples were vandalized, this according to the Bangladesh Hindu 
Buddhist Christian Unity Council.
    Parliamentarian Chhabi Biswas from the Netrokona-1 District 
described to us in our meeting the warnings he received from 
radical Islamists to stay silent during election violence 
targeting members of the Hindu community.
    As a result of his refusal to comply, his car was bombed on 
December 24th of 2014 by BNP activists. Mr. Biswas narrowly 
escaped death and fortunately is still serving as a member of 
Parliament. And as recently as April 22, 2015 in the run-up to 
the execution of Mohammad Kamaruzzaman at least three Hindu 
temples were attacked in the aftermath of that.
    Women are especially vulnerable as well during bouts of 
anti-minority violence. Thousands of Hindu women have been 
sexually assaulted or raped by members of Jamaat-e-Islami and 
its affiliates.
    According to first hand information received from the 
women's wing of the Bangladesh Hindu Buddhist Christian Unity 
Council.
    Most of the current unrest can be traced back to the 
coalition that began in 2001 of the BNP and Jamaat alliance 
where even more significant violence targeting Hindus occurred.
    Moreover, activity by militants and radical organization 
such as Harkat-ul Jihadal Islami, a State Department designated 
foreign terrorist group, and Jama'atul Mujahideen Bangladesh 
significantly increased during the BNP regime. These 
organizations are closely linked with Jamaat and have 
collectively created an atmosphere of violence and 
intimidation.
    As long as Jamaat and other Islamist groups are allowed to 
operate with impunity, Hindus and other religious minorities as 
well as atheists remain in critical danger.
    Hundreds of thousands of Bangladeshi Hindus have fled to 
India over the past 13 years and potentially could obtain 
citizenship soon, according to statements by the recent Indian 
government.
    Three weeks after I left Bangladesh, Avijit Roy, a 
Bangladeshi writer and blogger, was killed in front of the 
heavily guarded Dhaka Book Fair and only a mere 5 weeks after 
that Washikur Rahman was also murdered by machete-wielding 
assailants.
    Many times, these--when any suspects are apprehended they 
often state that they are acting under the orders of madrassa 
officials or imams and they have no idea what a blog even is.
    The attacks on Roy and Rahman are not isolated incidents 
but rather reflective of a systematic attempt by radical 
Islamist groups to undermine the nation's secular fabric.
    It is my hope that--and those of Bangladeshis that the U.S. 
will work to, number one, declare Jamaat-e-Islami and Islami 
Chhatra Shibir a foreign terrorist group, any officials from 
Jamaat that have engaged in severe violations as defined by 
U.S. laws be denied entry into the U.S. and any of these 
officials who may live in the United States currently should be 
investigated.
    The U.S. Government should strongly condemn all political 
violence and attacks by Islamist groups and work constructively 
with the current Bangladeshi government to ensure that these 
attacks on religious minorities cease in order to bring--and 
also bring justice to past victims of violence.
    Finally, all future military and economic aid to Bangladesh 
should be conditioned on the improved status for religious and 
ethnic minorities including increased representation of 
minorities in various levels of all--of Bangladeshi public 
life, and this is especially true for the military and civil 
service apparatus.
    Thank you.
    [The prepared statement of Mr. Kansara follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. Thank you very much.
    We would ask people to restrain the clapping. We generally 
don't do that in the committee hearings. Thank you.
    Mr. Fleischli, we should have time for another 
presentation. Dr. Ayres, we will probably wait until we come 
back after the votes to go to you.
    But Mr. Fleischli, you are recognized for 5 minutes. Thank 
you.

     STATEMENT OF MR. STEVEN D. FLEISCHLI, PRESIDENT, U.S.-
           BANGLADESH TRADE AND RELATIONS ASSOCIATION

    Mr. Fleischli. Chairman Salmon, Ranking Member Sherman and 
members of the subcommittee, I thank you for the opportunity. 
It is truly an honor to appear in front of you today.
    I will be summarizing my written statement which I 
requested be submitted for the record.
    Mr. Chabot. Without objection, so ordered.
    Mr. Fleischli. My name is Steve Fleischli and I live in St. 
Louis, Missouri. I have travelled to Bangladesh for many years, 
for the first time starting in 2007. I have walked the floors 
of factories. I know many workers and I have got Bangladeshi 
business associates.
    In Bangladesh I have been integral in the development of 
new factories, more than 5,000 jobs in the textile industry and 
with exports of more than $40 million per year to the United 
States and other countries.
    Because I care deeply for the future of the U.S. and 
Bangladesh relationship and believe in the potential for 
continued growth in Bangladesh, I co-founded the U.S.-
Bangladesh Trade and Relations Association.
    UBTRA, as we call it, is a new business organization that 
advocates for human rights, workers' rights, political 
accountability as a basic frame work for building and enabling 
an economic environment for business in Bangladesh with the 
United States. Bangladesh has made some progress in economic 
development for sure.
    Trade and international investment have played an integral 
role in bringing industry to the country and spurring 
unprecedented economic growth.
    However, there is still a major need for improvement in 
Bangladesh in the sphere of political accountability and labor 
and human rights. Recent violence in Bangladesh resulting the 
loss of life and property including many--including American 
citizens speaks to this urgent need for reform and 
reconciliation.
    Just 2 days ago, the elections in three city corporations--
Dhaka North, Dhaka South and Chittagong--were marked by 
violence, intimidation and vote rigging, as you noted earlier, 
as well as a boycott from the Bangladesh Nationalist Party.
    Allegations of irregularities were received from many 
different polling station including in Chittagong, the second 
largest city and the main seaport of Bangladesh and the port of 
which I have two factories that I ran.
    As a CEO of a textile company, I manage two factories 
within that Chittagong export processing zone. My company 
exported to multiple major U.S. discount, department and mass 
merchant stores from 2008 until 2012.
    Today, I have the opportunity to again invest in factories 
in this same zone but because of the instability, after upwards 
of 2 years of planning I will not make that investment quite 
yet.
    Similarly, the violence and perceived impediments to trade 
and investment in Bangladesh have hampered UBTRA's ability to 
grow its membership among U.S. and Bangladeshi businesses, in 
particular with small and medium-sized enterprises.
    Other global corporations with interests in both countries 
as well as among stakeholders such as the youth and the 
diaspora.
    The basic tenets of UBTRA we applaud the recent approval by 
the House of Foreign Affairs Committee, H.R. 1891, a bill to 
extend the African Growth and Opportunity Act, the generalized 
system of preferences, the preferential duty treatment for 
Haiti and for other purposes.
    WE support extension of the GSP program through 2017. 
However, we strongly oppose that Bangladesh receive benefit of 
that GSP until such a time that Bangladesh has fully 
implemented all the required reforms and actions that have been 
set forth in the Bangladesh Action Plan of 2013 provided by the 
Obama administration.
    UBTRA asserts that while improved trade relations are a 
desirable goal, at no point in time should they supersede human 
rights and worker safety initiatives.
    UBTRA supports the right of Bangladeshi workers to work in 
a safe and a healthy environment. We believe that a responsible 
trade policy is one of the key aspects to preserving the rights 
of Bangladeshi workers and citizens and seek to promote a 
responsible trade relationship between the United States and 
Bangladesh.
    ULTRA is concerned about the election process in Bangladesh 
which, as noted above, is plagued by political violence and 
boycotts by prominent political parties. We believe the 
formulation of a democratic and free society forms the backbone 
for an efficient and responsible economy.
    Regarding labor and human rights, in Bangladesh there is a 
lack of respect for fundamental human rights that is a major 
barrier to growth in the U.S.-Bangladesh business relationship.
    Over the past decade, various highly respected human rights 
organizations including Amnesty International, Human Rights 
Watch, the Asian Human Rights Commission and ODHIKAR, a 
preeminent human rights NGO in Bangladesh, have documented 
extrajudicial killings, kidnappings, torture, election 
interference and corruption.
    Overall, ODHIKAR had documented 2,216 extrajudicial 
killings that occurred between 2001 and 2013 in Bangladesh. 
Closely tied to the broader human rights culture in the 
country, our concern is for worker safety and rights. The 2013 
Rana Plaza and 2012 Tazreen fire disasters tragically 
highlighted the disastrous working conditions that are 
pervasive in the Bangladeshi manufacturing sector.
    A new report from Human Rights Watch details the continuous 
violations of workers' rights, allegations of illegal anti-
union tactics and the inadequacy of reforms and company 
interventions to date.
    Just last week, Secretary Kerry and the U.S. trade 
representative Michael Froman along with other high-level U.S. 
Government officials and EU officials issued a statement 
detailing the work that remains to improve labor standards and 
working conditions.
    In particular, both parties support efforts to continue 
reforming labor laws in consultation with the ILO, complete all 
factory safety inspections and register unions efficiently and 
with transparency.
    Unless significant changes are made in the handling of 
labor organizers and civil society activists, the trade 
relationship will suffer.
    Mr. Chabot. Mr. Fleischli, are you close to wrapping up? 
Because you are about a minute over now.
    Mr. Fleischli. Okay. I get----
    Mr. Chabot. You want to make a concluding statement or 
something?
    Mr. Fleischli. Yes, I will make a real quick conclusion.
    Mr. Chabot. Thank you.
    Mr. Fleischli. At the end of the day what UBTRA would like 
to see happen is there has been a lot of talk lately from the 
U.S. toward Bangladesh but there needs to be actual physical 
action.
    Our recommendations or ideas would be reducing FMF and IMET 
funding--potentially, we currently fund police training of the 
Bangladeshi police here in the U.S. as well as military 
training here in the U.S.--continued suspension of the GSP 
benefits, and any other military and trade sanctions that might 
be possible to help change the direction of the current 
situation of Bangladesh.
    Mr. Chabot. Thank you very much.
    Mr. Fleischli. Thank you very much.
    [The prepared statement of Mr. Fleischli follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. And as I mentioned before, we have a series of 
votes. We have three votes, which generally we are looking at 
about \1/2\ hour before we would be back here.
    If you want to go out in the hallway, we won't be in 
session here again for about \1/2\ hour and as soon as we get 
back, we will get started and we will go to you then, Dr. 
Ayres, and then we will ask questions.
    If there is no further business before votes, we will be in 
recess here for about \1/2\ hour.
    [Recess.]
    Mr. Chabot. The committee will come back to order. I want 
to thank everyone for being patient with us, and Dr. Ayres, you 
are recognized for 5 minutes.

  STATEMENT OF ALYSSA AYRES, PH.D., SENIOR FELLOW FOR INDIA, 
     PAKISTAN, AND SOUTH ASIA, COUNCIL ON FOREIGN RELATIONS

    Ms. Ayres. Thank you very much.
    Chairman Salmon, Ranking Member Sherman, Congressman Chabot 
and members of the subcommittee, thank you very much for the 
invitation to appear before you on political and religious 
extremism and Bangladesh. I am honored to be part of this 
distinguished panel.
    My comments summarize my more detailed written testimony 
submitted for the record. Bangladesh has been in the news for 
terrible reasons. On March 30th, Washikur Rahman was hacked to 
death in Bangladesh's capital city, Dhaka.
    The month before, Avijit Roy was hacked to death as he left 
the Dhaka Book Fair. In 2013, Ahmed Rajib Haider was hacked to 
death with machetes, also in Dhaka. All three were bloggers 
targeted by radical Islamists for their atheist views.
    These murders occurred in the context of political unrest 
so I will offer a few words about the political and economic 
situation before returning to discuss Islamic extremism.
    Bangladesh's politics are hurting its economy. Bangladesh 
is a country of 160 million people of whom approximately 90 
percent are Muslim.
    Bangladeshi politics are polarized at the best of times but 
particularly in the last 2 years. In last year's national 
election one major party, the Bangladesh Nationalist Party, 
refused to participate, which resulted in a landslide 
reelection of the Awami League. The BNP abstained because 
elections were overseen by the Bangladesh Election Commission 
rather than a neutral caretaker government.
    All efforts to mediate by Bangladeshis, foreign diplomats 
and United Nations failed. On January 5th this year, 1 year 
after the election, the BNP began renewed public strikes 
against the government, adding transportation blockades to its 
tactics.
    The BNP hopes that street pressure will achieve fresh 
elections. But public strikes in Bangladesh often result in 
violence. Since January 5th, more than 120 people have been 
killed.
    Contributing to the polarized situation, the BNP 
chairperson, Begum Khaleda Zia, faces graft charges and was 
effectively held under house arrest for weeks earlier this 
year. The government has cracked down on the opposition and on 
the media, and the ongoing international crimes tribunal, 
seeking accountability and justice for the horrible crimes 
committed during Bangladesh's liberation struggle in 1971 adds 
further fuel to this combustible mix.
    All of this is now hurting the economy. The IMF lowered its 
economic growth forecast for Bangladesh to 6 percent, noting 
that the resurgence of unrest in recent months is taking a toll 
on the economy. A World Bank official told the Los Angeles 
Times that the larger economic toll of political unrest could 
be as high as $2 billion.
    The garment industry, a major employer, is facing a 30 to 
40 percent downturn in orders by one estimate. This is all 
linked to the instability rising from extreme political 
polarization--Islamist violence in Bangladesh.
    Bangladesh has come a long way since 500 bombs exploded 
simultaneously in nearly every district in the country in 
August 2005. Successive governments have focused on tackling 
terrorism and have been largely successful. Still, three 
disturbing developments bear watching.
    First, the Hefazat-e-Islam emerged as a force in 2013 with 
austere demands that included a blasphemy law with the death 
penalty, punishment for ``atheist bloggers'' who insult Islam, 
prevention of men and women from what they called free mixing 
and ending of what they called an anti-Islam women policy.
    The second concern relates to the dispossessed Rohingya 
people. There have been reports in Bangladesh and in India that 
the Pakistan-based Lashkar-e-Taiba, responsible for the Mumbai 
attacks of 2008, have been trying to recruit Rohingya refugees.
    Third, the dramatic spread of the self-proclaimed Islamic 
State into South Asia and the announcement last fall of a new 
Indian subcontinent subsidiary of al-Qaeda have captured 
attention.
    In January, Bangladeshi authorities arrested four men 
suspected of Islamic State membership. Last September, a 
British citizen of Bangladeshi origin was arrested in Dhaka 
under charges of recruiting for the Islamic State.
    Recommendations for U.S. policy: I will provide four, and 
more detail about my recommendations is in my written 
testimony. First, support the requested increase in resources 
focused on democracy and governance programs in U.S. assistance 
to Bangladesh and consider supplementing further.
    U.S. assistance to Bangladesh has been concentrated in 
health, food security and climate change. The resources 
available to provide democracy and governance support are small 
compared with the outlays for these three categories. They are 
also very small compared to our support for these categories in 
Pakistan.
    Two, continue and expand the growing U.S.-Bangladesh 
counterterrorism and security cooperation. This has been a very 
successful area. Bangladesh seeks our assistance, is trying to 
do more and can benefit from our continued support.
    Relatively small amounts of assistance can go a long way, 
particularly on topics like community policing, anti-money 
laundering, counter terrorist financing and strengthening 
capacity within the justice system.
    Three, deepen security consultation with India about 
Bangladesh. Regularly consultations covering security matters 
in South Asia should be continued and enhanced, especially 
given the developments discussed above, which India watches 
closely.
    And finally, four: Continue looking for ways to incentivize 
political reconciliation in Bangladesh. Finding a way to bridge 
the chasm between Bangladesh's two major political parties and 
a deep personal enmity that drives their differences had proven 
Sisyphean.
    The United States should look for positive incentives to 
emphasize more robustly such as the prospect of a Millennium 
Challenge Corporation threshold program should Bangladesh reach 
a better situation of governance and law and order.
    We should also continue to impress upon the Bangladesh 
government as well as the opposition the enormous opportunity 
costs to the country from its ongoing political stalemate. It 
is a country with a spirit of entrepreneurship and huge 
unrealized promise. A better political environment would 
position Bangladesh for great things.
    Thank you very much, and I look forward to any questions.
    [The prepared statement of Ms. Ayres follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                              ----------                              

    Mr. Chabot. Thank you very much, and now members of the 
panel will have 5 minutes to ask questions.
    I will begin with myself, but I am going to use part of my 
5 minutes to give the opening statement that I would have given 
had we not turned immediately to the panel. But this is part of 
my 5 minutes so they can start the clock.
    Bangladesh has long represented a moderate secular nation, 
as has been stated, which has worked hard to pull itself out of 
extreme poverty.
    It has become an important security partner for the United 
States in the fight against terrorism and Islamic extremism in 
South Asia as well as a partner on humanitarian assistance, 
peacekeeping operations and maritime security.
    However, ongoing political turmoil has plunged the nation 
in a political security crisis. While some have said that in 
Bangladesh this is politics as usual, I am afraid we are 
witnessing a troubling course of events.
    When I was in Dhaka before the national elections last 
year, I met with both Sheikh Hasina and Khaleda Zia, and I had 
met with them before previously when I had been there a number 
of years prior.
    I met with both of them at that time, separately both 
times, and it was evident at that time that both sides sat at 
an impasse, which is still the case, unfortunately.
    Sheikh Hasina insisted provisions were in place to conduct 
a fair election, and we know that didn't really happen. 
Following this past week's city council elections, which are 
now marred by evidence of irregularities and intimidation, I am 
concerned about the roiling violence that has increased since 
the beginning of the year and what this all means for 
Bangladesh's democratic tradition.
    I believe Bangladesh has great potential, as the chairman 
mentioned in his opening statement, but it has much standing in 
the way of its continuing progress, as we have heard here this 
afternoon. I want to thank the witnesses for their testimony 
this afternoon. It has been very helpful to us. The things that 
the panel members have heard, we will convey to our colleagues 
who didn't have the opportunity to be here this afternoon. Also 
through our staffs, we will make sure that all the other 
members of the Foreign Affairs Committee are able to benefit 
from the testimony that we have heard here this afternoon and 
their written testimony will be made available as well.
    Now, for just a couple of questions: There have been a 
string of high-profile murders of journalists, as was 
mentioned, and bloggers as well as mass killings of commuters 
in bus bomb attacks.
    Outside of these headline-grabbing events, what does the 
situation actually look like on the ground in Bangladesh and 
how is it impacting the everyday life of the average person in 
Bangladesh? If you could all be very brief, I will just go down 
the line, and maybe start with you, Ms. Curtis, if I could.
    Ms. Curtis. Thank you. Yes, the political violence that 
occurred in January and February connected to the opposition 
protest demonstrations was very disruptive to the economy, to 
people's ability to get around. And what was particularly 
disturbing were the petrol bombings on the buses, which caused 
hundreds of innocent bystanders to become burned or, you know, 
were killed.
    So this was particularly disturbing, I think, to the 
average Bangladeshi that this was occurring.
    With regard to the murders of the bloggers, I think this 
provokes a different kind of concern among the Bangladeshi 
people. The Bangladeshi people are proud of their Bengali 
traditions and they have been a largely peaceful, moderate, and 
pluralist society.
    So when extremists are trying to disrupt that environment 
in Bangladesh, I think people become very concerned. But I 
would just point out there is a difference between those 
murders, which were by Islamist extremist groups, and the 
petrol bombings, which occurred as part of the political 
violence that was as a result of the opposition protests.
    Mr. Chabot. Thank you.
    Rather than go down the line, I have less than a minute so 
I would never have a chance. I wanted to get to at least one 
more question.
    Let me give you another question and I will go to you, Dr. 
Riaz, and then down the line on this one. Is there any way that 
we can encourage the Awami League and the BNP to have 
constructive dialogue about alleviating the tension between 
those parties?
    What role could the United States or any of the neighboring 
countries--India or China or Burma or anybody else--play to 
facilitate these reconciliations? I know that may sound kind of 
pie in the sky. We would probably all like that to happen. Is 
there any possibility of that happening, Dr. Riaz?
    Mr. Riaz. Thank you.
    First of all, this is a problem that needs to be solved by 
Bangladeshis. It cannot be solved by outsiders. Having said 
that, the United States and the international community has a 
role to play.
    Particularly, I think it will default and is a missed 
opportunity for Bangladeshis--you know, wasted; because there 
was a relative calm and that opportunity should have been 
taken. One more thing is you have mentioned and I think it is 
important to have the Indians having a role.
    India has a role and a responsibility because it is the 
largest democracy and a neighbor; and also for security 
concerns because in Bangladesh, which is completely--you know, 
if the security situation deteriorates it is not going to help 
India in any way or fashion.
    So with those in mind, I think this is important to press 
upon both parties that if it continues to be like this, 
continued violence perpetrated by parties, it is not going to 
help Bangladesh in terms of achieving its potential and they 
need to do it and that is why the interlocutors should be both 
domestic and international community.
    And what the United States can do--is to encourage other 
parties such as India, such as the European Union to be 
involved and engage with the parties for coming up with a 
solution.
    Mr. Chabot. Okay. Thank you.
    I will come back to the others if we go a second round. But 
I don't want to take up all the time. So I will now yield to 
the ranking member, Mr. Sherman.
    Mr. Sherman. Thank you.
    Everyone in this room is dedicated to the people of 
Bangladesh, one of the poorest countries in the world and so 
there is a natural tendency in focusing economic policy to 
focus on what is good for Bangladesh.
    Ms. Curtis advocated more imports for Bangladesh and more 
investment in Bangladesh by the United States, that investment 
basically being American companies figuring out how to make a 
big profit by creating a lot of jobs in Bangladesh rather than 
in the United States.
    And so I would like to be a voice to point out that for 
every--that we have a five to one trade deficit with 
Bangladesh--that Germany exports three or four times as much to 
Bangladesh as we do and that we would have tens of thousands of 
more jobs in the United States if we had a balance trade 
relationship.
    I expect that trade relationship to get much larger and I 
hope that the lopsided nature of it gets much smaller.
    Mr. Fleischli, am I--Fleischli, is it true that in 
Bangladesh they have free trade zones where labor unions are 
restricted?
    Mr. Fleischli. I am not 100 percent sure if they are 
restricted from the zones. We operated in the zone.
    Mr. Sherman. You operate in the zone?
    Mr. Fleischli. Yes. We have organizations----
    Mr. Sherman. I am told that labor unions are actually 
prohibited in those zones. You don't know whether they are or 
not?
    Mr. Fleischli. I am not sure if they are or not.
    Mr. Sherman. But you know your own factories, of course, 
don't. Are you aware of any labor union operating in the zones?
    Mr. Fleischli. There is labor organizations that I have 
heard of.
    Mr. Sherman. What?
    Mr. Fleischli. There is labor organizations that I have 
heard of operating within the zones.
    Mr. Sherman. Well, labor organization is very different 
from a labor union. Dr. Riaz, the average parent in Bangladesh, 
if they want to send their kid to a secular school, is that 
provided by the government free? Are there fees? Or do you have 
to pay for your own student's books?
    Mr. Riaz. First of all, this is the major achievement in 
the past decade of Bangladesh, that they are provided education 
to everybody. Anyone. As a matter of fact, one of the major 
achievements is bringing the female children to schools. This 
is free.
    Mr. Sherman. And it is free of any fee. What about books? 
Are the books free?
    Mr. Riaz. It is free, free for everybody.
    Mr. Sherman. And the books are free?
    Mr. Riaz. The books are free and over the last years we 
have seen that the books are provided to the students on time, 
which is--which is an excellent achievement.
    Before the school starts they do get the books, so this has 
been an achievement of the government, and over the years, over 
the decade actually, there are the females' stipend provided, 
which encouraged females to be in the schools. So significant 
achievement.
    Mr. Sherman. I would point out that one focus of our 
foreign aid could be to provide those books to the Bangladeshi 
government.
    That would give us some influence over content without 
going all the way to an American politically correct content 
and that it is--it is very hard to steal a book. Well, I mean 
you can--it is very hard for a corrupt official to make money 
stealing books as opposed to money.
    Doctor, Bangladesh is a low-lying country. Sea levels are 
likely to rise. How big a problem is that?
    Mr. Riaz. It is a major problem. It is a major problem 
because of the environmental challenges. Bangladesh is at the 
forefront of the battle of the environmental disasters that we 
are anticipating and it was not the making of Bangladesh.
    I mean, it is the front line of the environmental battle 
that the world should be fighting instead of leaving Bangladesh 
to fight alone.
    Mr. Sherman. How much of its arable land is it likely to 
lose if we see a half a meter rise in sea levels?
    Mr. Riaz. There are variations in terms of the 
predictions--some even predicted up to one-third, but at least 
10 to 13 percent of the low-lying lands might be lost if the 
sea level rises and, you know, the global warming, which is--
which would be a disaster.
    But let me take this opportunity just briefly that this is 
a battle of everyone's, here or there. It is not only a battle 
of Bangladesh.
    Mr. Sherman. Dr. Riaz, I only get 5 minutes. I am going to 
move on to another question, if that is okay. My colleagues 
have heard me talk with passion about the--with the--about 
climate change.
    Bangladesh suffers from a dysfunctional two-party system. 
The climate of repression is worsening. Is there any way short 
of a military takeover to resolve this situation?
    Mr. Riaz. Military takeover is not a solution.
    Mr. Sherman. No, I didn't say that that was a solution.
    Mr. Riaz. So they have to. I mean, I am--at the end, I am 
optimistic to that extent that the Bangladeshis are resilient. 
Bangladeshis have faced adverse situations and that they have 
the ingenuity to come up with the solution. However, given the 
circumstances they will have to come up with solutions. 
Likelihood? If I say that--would I put my money on it at this 
point? No.
    But there is no way without having a reconciliation, 
conversation, negotiation and that the international community 
needs to help. Again, they cannot impose a solution but they 
can facilitate and that if it is not facilitated, history tells 
that, obviously, this is not going to end in anyone's favor. 
The loser will be Bangladesh.
    Mr. Sherman. Thank you.
    Mr. Chabot. The gentleman's time has expired.
    We will go ahead into a second round now, so I will yield 
to myself for 5 minutes. Oh, I am sorry. I didn't see you 
there, Tulsi. My bad. Hawaii, Ms. Tulsi.
    Ms. Gabbard. Thank you very much, Mr. Chairman. Thanks all 
of you for being here.
    Follow up on Mr. Sherman's question, what--given the 
political impasse that we are facing what is the likelihood of 
a military intervention or takeover and if that were to occur 
how would you see that? Given the dynamic now how would you see 
that play out? For whomever would like to answer.
    Ms. Curtis. I will just say quickly I think right now the 
chances of the military getting involved are pretty low and I 
think that is because of the previous experience when they did 
take the reins of power in 2007 for nearly 2 years and their 
image suffered from allegations of corruption.
    And so I think this has made them less likely to want to 
step in unless, of course, things deteriorate significantly or 
violence increases tremendously. Then perhaps they would 
consider it. But I think right now they are not showing any 
signs of getting involved.
    Ms. Gabbard. With regard to the--I know a couple of you 
spoke about the Islamic militancy or Islamic extremism that is 
there. To what extent do these groups have broader influence 
over the disaffected Bangladeshis or the broader community 
there?
    Mr. Fleischli. I will speak personally from my own 
experience. You know, this was part of my oral testimony that I 
couldn't get to.
    You know, the issue that is at hand right now in Bangladesh 
is the situation is so chaotic and there is so much unknown and 
there are so many people that feel lost and discouraged that 
Bangladesh is turning into basically a breeding ground, if you 
will, for terrorist activity--ISIS--and God forbid, you know, 
if ISIS were to grab hold of 170 million people, you know, and 
that is at a very key interchange in South Asia for the United 
States of America.
    Ms. Gabbard. Yes.
    Mr. Fleischli. And so as an American citizen, outside of 
business--as an American citizen that scares me to death. It 
absolutely scares me to death and it scares me for my friends 
and whom I would call family--that I have extended family in 
Bangladesh because it is so easy. It is so easy when you are 
in--falling on tough times and you are discouraged to be 
recruited. So it is concerning.
    Ms. Gabbard. Mr. Kansara, I know you were there and you met 
with some of the moderate Muslim leaders there. If you could 
share your experience both on how the situation is really 
affecting the day to day lives but also with the moderate 
Muslim community is doing about this increased threat.
    Mr. Kansara. Thank you. In conjunction with Mr. Chabot's 
question, based on my observations of only being in Dhaka--
unfortunately I could not travel to other parts of the country 
because it was just simply unsafe--Dhaka, the streets of Dhaka 
were completely empty.
    The traffic--there was virtually no traffic and if anybody 
has been to Dhaka they told me that that is a complete anomaly. 
It would take you hours to travel from one mile to another as 
opposed to the minutes. And so businesses were directly 
affected.
    Shops were completely shut down and you could--also of 
concern was that 60 million students, because of the hartals, 
were prevented from taking their exams.
    That is almost disenfranchising economically an entire 
generation of Bangladeshis. And so this was a complete 
irresponsibility on the parties involved.
    With regards to the moderate Muslim leaders whom we met 
with, one gentleman named Imran Sarker, who is a prominent 
secular activist and he is a practicing Muslim, he described 
his trepidation with increasing Islamisation of Bangladesh 
society saying that Islam had been imposed upon them as opposed 
to a free choice of choosing religion and how much religion 
should be a part of their daily lives.
    And the public school textbooks were also increasingly 
showing signs of radicalization by referencing Islamic 
followers of Islam over other religions and this was--had 
direct implications for communal harmony and religious freedom.
    And in an interview that he gave at the Business Standard, 
an Indian publication, he said that he is actually now under 
threat by Islamist forces. So moderate Muslim leaders are also 
under threat by the same--by the same perpetrators of violence 
against Avijit Roy and Washikur Rahman.
    Ms. Gabbard. Thank you. Dr. Ayres, I think you had wanted 
to add some comment on this.
    Ms. Ayres. I just wanted to say that I do think it is 
probably difficult to ascertain what percentage of the general 
population has a more radical view, and certainly Bangladesh 
has not been a radical country. It has been a place of great 
moderation.
    But the real issue here is that it only takes a few people 
to cause great chaos. So if you look at the kind of explosions 
that took place in 2005, you have a small cell that can affect 
something that is hugely consequential for the country.
    The murders of these three bloggers that have just taken 
place, you know, the people who have been arrested are small 
cells of two and four people, again, who don't seem to be part 
of any sort of larger organized groups, sort of small groups 
who are, you know, directed by their cleric. That is the trial 
going on right now.
    So, again, I do think there are people who are overall 
largely moderate but there are small cells of people that we do 
need to worry about.
    Ms. Gabbard. Thank you. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. The gentlelady yields back and, 
again, my apologies for the oversight.
    We will now go into a second round. When I was last in 
Bangladesh, which was shortly before the elections--on my way 
back, actually on the plane, I believe--I do a blog every week 
and I happened to do it on Bangladesh since I had just been 
there. Interestingly enough, it got more hits--more people were 
interested in that particular blog than anything I have done in 
about 5 or 6 years since I started the blog. Every week I do 
it, and so I am not sure exactly why that was, but it was a 
fact.
    There are a lot of people, obviously, in Bangladesh--about 
half the population of the U.S. squeezed into a country about 
the size of Iowa or even a little smaller than Iowa--so you can 
still read that if you would like to.
    It is on my blog. All the old ones are on there now. I do 
have an official blog and a political blog, but I keep that on 
the political blog. It is there if you ever want to go back and 
read what I thought about this 2 years ago.
    The thing that struck me shortly before the election and my 
understanding was the polling was showing that Khaleda Zia was 
likely to win the election, but ultimately, you know, they 
couldn't come to an agreement and it seemed to be over the 
issue of a caretaker government.
    A lot of times in the past, there have been caretaker 
governments that took over the elections that were held, so 
that they could make sure that one side or the other wasn't 
being unfair with the other side.
    It seemed to work relatively well, but this time that 
didn't happen and so we see what we saw after the elections. I 
was actually a bit surprised that the violence wasn't even more 
after the election.
    In any event, it is what it is. What role did that 
caretaker government versus not having one have in this 
election and what we ended up with? Dr. Ayres, would you want 
to comment on that?
    Ms. Ayres. Well, that, certainly, has been the most 
important point of dispute over the course of the last nearly 2 
years because the disagreement over how to carry out the 
election of January 5, 2014. The run-up to that election, 
actually, this disagreement was well known.
    In fact, that was the period where you saw a lot of 
Bangladeshis trying to bring both parties together to discuss. 
There is a quite famous--famous among Bangladeshis--transcript 
of a telephone conversation that took place.
    Yes, you probably read it at the time where, unable to even 
agree among the two leaders of the political parties who should 
call whom first--really intensive enmity there.
    So they have continued to focus on this as the point of 
disagreement when in fact, I mean, if they were to reach an 
agreement on some mechanism, whether it is an institutionalized 
Bangladesh election commission that adheres to all forms of 
free and fair elections or a caretaker government, I mean, 
ultimately it doesn't matter what they choose as long as they 
agree and the elections are carried out in a free and fair and 
transparent manner.
    Mr. Chabot. Thank you.
    Mr. Fleischli, let me turn to you, if I can at this point.
    Sometime--well, a few years ago--I don't remember the exact 
date, but two of the major items that were in the world news 
were the Rana Plaza garment factory collapse, when over 1,100 
people, I believe, were killed, another 2,500 were injured and 
these were mostly women is my recollection. And the other was 
the Tazreen fashion factory fire and it was over 100--I think 
it was 117--that were killed and another 200-plus were injured 
in that.
    And there was a lot of attention of the condition that a 
lot of these factories there were under and the unsafe things.
    And the argument here was U.S. companies, you know, if we 
are doing business and importing progress and we have a, if not 
a legal responsibility, a moral responsibility in making sure 
that people that are making these products, which are 
ultimately coming here to the United States and purchased by 
American citizens that we have a responsibility to make sure 
that it is safe.
    And you could argue who knew what when and I am sure that--
all kinds of lawsuits involved in that. But what improvements 
or what changes were made as a result of those two horrific 
occurrences?
    Mr. Fleischli. Well, I think initially and even up until 
today you have got two major groups that were formed. You have 
got the alliance and the accord. One is on the European side 
and one is on the American side.
    You know, those two entities are made up of basically the 
largest retailers and the largest brands in the world. It took, 
I think, gathering that power, which is huge buying power, and 
they import billions of dollars from Bangladesh to be able to 
start the path to change and bring recognition to what is going 
on on the ground in Bangladesh.
    You know, as a CEO in Bangladesh back around--between 2007 
and 2012, approximately, you know, we did business with the 
largest retailers. Our internal safety regulations were very 
strict.
    You know, a lot of the safety and the security regulations 
that are--that are--that we had in place mirrored and/or 
exceeded--I won't name the retailers but the largest retailers 
that are out there--and luckily, because of me being American 
and me being face to face with the buyers all the time and the 
customers and listening to that their concerns are, I was able 
to always ensure that when I was at the factory I could 
physically inspect.
    You know, I was more of a hands-on kind of CEO as opposed 
to the desk CEO. So I would walk the floors all the time. I 
would make sure that the fire extinguishers were there.
    I would make sure that the doors were open, that we had 
plenty of escapes and, you know, that we didn't have floors 
overloaded and, you know, people couldn't trip on things on the 
floor.
    And it was very, very important for me to do that because 
our business counted on it and the people's lives counted on 
it, and that was pre-Tazreen and Rana Plaza.
    So when those two events occurred, it was absolutely 
devastating, and I can feel their pain. You are right, 90-plus 
percent of the employees--the workers were female.
    Mr. Chabot. Thank you very much. My time has expired.
    Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. I will just ask one 
follow-up, just following up on the counter terrorism subject 
matter.
    I understand that Bangladesh's Rapid Action Battalion has 
been effective in counter terrorism efforts but that they have 
also been known to be used by the government to attack 
political opponents.
    So I am wondering if you can comment on how you can reach 
both objectives of curtailing the abusive power but also 
recognizing if this is an effective asset to counter these 
extremist elements. How do you see that playing out?
    Mr. Fleischli. If you don't mind, I will just make one 
quick comment. As it pertains to whether it is the Rapid Action 
Battalion or the military or even just the police, you know, 
the police itself, generally speaking from my understanding, is 
trained and funded here in the U.S., so by U.S. taxpayer 
dollars.
    A lot of the military is as well. The RAB, I believe, is 
done through the U.N. and heavily funded by the U.S. I wanted 
to give you an example.
    I was leaving a hotel in Chittagong, the Peninsula Hotel in 
Chittagong, 1 year and it had in my van on the way to the 
factory two people from one of the largest retailers in the 
world--senior executives.
    And no more than 5 minutes after we left--and there was 
traffic then, the roads were absolutely packed and it does take 
an hour to get a mile--one of the members of RAB, and you can 
clearly see them--they are in a blue uniform.
    It says RAB on the back of them and I have been told that 
they are the elite of the elite out there--took and beat the 
living you know what out of a normal ordinary citizen because 
he crossed the street at the wrong time.
    The buyers that were sitting next to me were, like, what 
the--was that, and I--I will apologize, you know, let us 
discuss it a little bit later, and I will tell you it wasn't 3 
months later that those buyers were barred from travelling to 
Bangladesh anymore.
    And then so that is a--it is a very serious concern and I 
indirectly, we, as Americans, have an impact directly in how 
that happens.
    Ms. Gabbard. Impacted. Yes. Dr. Riaz.
    Mr. Riaz. The most----
    Mr. Chabot. Just a clarification. They were barred by the 
Bangladeshi government?
    Mr. Fleischli. No, no, no, no, no. Barred by--barred by the 
corporation and--yes. Yes. For their safety and security, 
correct.
    Mr. Riaz. In terms of RAB's record both--we will have to 
take both these things, right--their success in terms of 
dealing with, you know, terrorism but also their human rights 
records is very poor--absolutely abysmal that we need to take 
into account and given the circumstances, the most important 
element in accountability, unless this force or for that matter 
any force, is accountable and that you cannot tie in simply.
    You know, one institution cannot be accountable when the 
whole system is not accountable and this is how it is, you 
know, in some ways they are connected to each other. Overall 
point--that is why an accountable governance is necessary that 
will ensure that this kind of heavy-handedness or the RAB's 
poor record of human rights, abuse can be addressed through an 
institutional arrangement.
    And if I may, just quickly, going back to what Dr. Ayres 
had mentioned in regard to this, there is a difference. The 
point is caretaker government or the election commission is 
mostly to have an institution that can protect your rights to 
vote in a free and fair manner.
    Caretaker government is not a solution. Solution is to 
build an institution which Bangladesh has not succeeded yet. 
Thank you.
    Ms. Gabbard. Thank you. Dr. Ayres.
    Ms. Ayres. Just a quick comment on the question of the RAB. 
The United States government has been interested in trying to 
help RAB carry out internal reforms and through the U.S. 
Department of Justice program has helped support a project to 
build an internal investigation capacity there.
    So there are programs that the United States can support to 
help Bangladesh reach more capable processes internally and 
help solve some of these problems. We have also supported 
police training programs.
    I visited the National Police Academy in Rajshahi a few 
years ago when I was serving in government, and we have 
supported programs that helped train them to focus more on 
community policing instead of thinking about, you know, use the 
stick first.
    Rather, treat the community as those you protect and serve 
and eschew the use of violence first. So there are methods we 
can use in support to try to bring about reforms.
    Ms. Gabbard. Right. Dr. Riaz, your point is well taken, 
though, about accountability. If you don't have an institution 
set up where there is, you know, transparency and justice and 
accountability then there is still far too much room for abuse.
    Thank you.
    Mr. Sherman. Mr. Kansara, people say that as you move 
further east from the Middle East that Islam gets more moderate 
and that in any case Bangladeshis are moderate in their 
approach to Islam.
    Can you explain what has driven the recent ethnic 
persecution of Hindus and how do--and does the Hindu community 
in Bangladesh back one party or the other?
    Mr. Kansara. So answering the first part of your question 
initially, it is fairly well known that the Hindu community by 
and large will support the Awami League because the Awami 
League has policy platforms that are set to roll back the 
Islamisation of the country--the encroachments of Islam in the 
constitution.
    They have made it a party platform to roll back those 
restrictions on other religious communities.
    Now, with regards to moderate Islamic movements within 
the--within South Asia or Bangladesh in particular, 
specifically with regards to Jamaat, the Jamaat-e-Islami is a 
Muslim Brotherhood-linked organization. The have direct ties.
    In fact, I believe Mohamed Morsi had visited Bangladesh 
while he was president of the Muslim Brotherhood and had met 
with Jamaat leaders there. And their brand of Islam is very 
similar to that of the Wahabis and the Salafis and they are 
simply--they are simply interested in creating an Islamic State 
in Bangladesh.
    It is part of their charter and it is part of their 
organization's methodology and the attacks that they have 
perpetrated on the citizens of Bangladesh and in conjunction 
with either banned terrorist organizations or other 
organizations like Islami Chhatra Shibir are set to intimidate 
the average Bangladeshi into being subjugated to that form of 
thought.
    Mr. Sherman. My own images of Jamaat is at the fringes of 
thought in Bangladesh. Do these extremist views have widespread 
support or are we talking about Hindus living in fear of a tiny 
extremist groups that means them harm?
    Mr. Kansara. Based on our observations and interactions 
with Hindu community leaders in Bangladesh, Jamaat and Jamaat's 
ideology is growing amongst the general population and I would 
say that Jamaat--it was palpable the financial power they have 
in Bangladesh.
    There is a--there is a list I found online before this 
hearing of over 20 financial insurance institutions, banks and 
several other power-wielding organizations that Jamaat funds 
and finances and that money, I don't think, is coming from the 
farms of Bangladesh.
    I think it is coming from foreign sources like Saudi Arabia 
or even Pakistan's ISI.
    Mr. Sherman. I yield back.
    Mr. Salmon. Thank you.
    Mr. Fleischli, I am going to ask my question directly at 
you. As some of the witnesses have noted, the World Bank 
estimates that the unrest in Bangladesh has had a cumulative 
negative effect of nearly $2 billion in just the last few years 
alone.
    So will companies continue to do business in Bangladesh if 
violence continues? That is my first question. Second, what, if 
anything, has the business community done to engage with the 
government to relay these concerns?
    And then has the government been responsive? And then 
finally, if trends continue what will the business community 
do? Thank you.
    Mr. Fleischli. Thank you for the question.
    You know, I--to step back for a little bit, I saw a huge 
growth in the business from '07 to 2012. Most of that 
transferred from China and other countries. Following--after 
2012, it started to dwindle down. The past 2 years it is 
dropping dramatically.
    Mr. Salmon. How do we keep that growth rate at 6.2 percent 
GDP growth rate with that dwindling?
    Mr. Fleischli. I--to be honest, I have no idea.
    Mr. Salmon. Do you believe the numbers?
    Mr. Fleischli. No.
    Mr. Salmon. Okay. Go on.
    Mr. Fleischli. Because I have been witness of a number of 
retailers that have moved mass amounts of orders outside of 
Bangladesh--places like Africa, Vietnam, Thailand, back to 
China again where it is three, four, five times more expensive 
to make something.
    But they are doing that because of security. They are doing 
that for safety. They are doing that to ensure that they are 
going to get the goods.
    Right now, with the situation that is at hand, you can't 
even get product from Dhaka down to Chittagong where it needs 
to ship. It is almost impossible, and there are so many 
factories in Dhaka. There is lots of factories in Chittagong.
    But Chittagong relies on Dhaka for a lot of materials, 
right, while Dhaka relies on Chittagong to get the containers 
out.
    So unless things change, you are going to see a continual 
drop and, unfortunately, that goes back to the whole issue of 
people feeling like they are lost and disconcerted and 
everything because you have got two parties that are warring 
with each other and there is no answers that are coming up. 
Business is going away. Factories are closing.
    Retail shops are closing because they have nothing to sell 
in their shops anymore because they can't get goods from, you 
know, up the road. I fear, unfortunately, that if there are not 
immediate steps taken to improve the situation in Bangladesh 
that Bangladesh will not be the growth opportunity that I know 
it can be and that it once was. And that is scary.
    Mr. Salmon. So other than your testimony today, what is the 
business community doing to relay those concerns to the 
government? Is there a dialogue going on?
    Mr. Fleischli. As far as I know, they discuss with people 
in the different NGOs within Bangladesh. My goal, as part of 
UBTRA, is to help engage some of those organizations, bring 
them in as membership and help guide them through the process 
and hopefully if we can all build together a big enough group 
of support maybe we can make that change. Maybe we can help.
    Mr. Salmon. Is there a very robust chamber of commerce--the 
American Chamber of Commerce?
    Mr. Fleischli. It is not very robust.
    Mr. Salmon. No?
    Mr. Fleischli. As far as I know. It is--I mean, it is 
there. It is in place. I don't know that it is that active.
    Mr. Salmon. In the dialogue that the business community has 
had with the government, is it responsive at all? Do they give 
you any reassurances that they are trying to work on it or 
moving in the right direction?
    Mr. Fleischli. You hear many things.
    Mr. Salmon. Mostly excuses or----
    Mr. Fleischli. It is mostly just talk. Yes, we are making 
these improvements but you never see the improvements. You 
know, I would--I would question the legitimacy of how many 
factories have actually passed inspections that they say have 
passed inspections and I would question that legitimacy.
    Mr. Salmon. So this is a really tough one. On a scale of 
one to ten----
    Mr. Fleischli. That is why I am saying being on the ground 
and actually seeing things is so important--to be there and see 
what is going on and experience what is going on, and not just 
read what the media says or what the government says or 
anything like that because being on the ground is a lot 
different.
    Mr. Salmon. On a scale of one to 10, how optimistic are you 
that things will turn around, both in the near term and the 
long term? And the long term is probably hard to predict but--
--
    Mr. Fleischli. Yes. Near term? I would like to be more 
optimistic but, you know, it is--you are probably 50/50. I 
mean, it is one way or the other and I think really the only 
way that you are going to get a teeter in the right positive 
direction is if we, as the United States, step in and play a 
bigger part in helping bring both parties of the government, or 
I should say the government and the opposing party, together to 
clean the slate and start fresh and get free and fair elections 
up and running and turn Bangladesh back into a democratic 
society. It is not. You know, it is not a democratic society. 
It is falling apart.
    Mr. Salmon. When I showed some transparency in what we were 
going to discuss in this hearing, as we are required to do, you 
know, some tried to tell me I was all wet and I was moving in 
the wrong direction and that things are wonderful and that the 
growth rate is phenomenal and that everything is under control 
and, you know, what we are hearing today is that is not 
accurate, is it? I mean, Ms. Curtis, what do you think?
    Ms. Curtis. Yes. First, I just wanted to quickly comment 
there is a U.S.-Bangladesh Business Council here at the U.S. 
Chamber of Commerce. Ms. Ayres and I were invited to speak 
about 1\1/2\ years ago when there were a lot of political 
tensions in the run-up to the January 2014 elections. At that 
time I would say there was about maybe 15 U.S. business 
representatives with interest in Bangladesh that were willing 
to join in a letter expressing their concerns about the 
political environment and how it was affecting business. So I 
think there is serious interest.
    Mr. Salmon. Did they do that?
    Ms. Curtis. I think they did, in the end. I don't know----
    Mr. Salmon. I would love to get a copy of that letter if 
there is any way to do that. I mean, that would be really 
helpful for my purposes.
    Ms. Curtis. Okay. We can follow up with that.
    Mr. Salmon. That would be really helpful. Because I think 
that, you know, it is all about due process. I think that it is 
important for the business community to convey that this is 
hurting you more than anybody, Bangladesh, and that if things 
don't turn around there will be a pretty--like you said, Mr. 
Fleischli, a pretty substantial exodus of economic 
opportunity--business--and that will only make things work.
    Mr. Fleischli. To be honest, I think the only thing that is 
really keeping any kind of growth aspect, if you want to call 
it that, in Bangladesh from an export standpoint is the fact 
that some form of GSP or tariff consideration is in place with 
Canada and Europe and it is very significant. That is really 
the only thing that is a saving grace right now because----
    Mr. Salmon. Is it possible to get--you know, insure your 
product because of some of the security concerns?
    Mr. Fleischli. You can insure your product, sure. Yes. I 
mean, that is definitely a possibility. It is not necessarily--
--
    Mr. Salmon. The rates are probably going to go through the 
roof.
    Mr. Fleischli. Well, it is not necessarily the security of 
the product. It is am I going to get the materials on time to 
make the product, to get it out the door on time to meet the 
ship dates that the retailers are looking for.
    Mr. Salmon. Right.
    Mr. Fleischli. Because if you don't meet those ship dates--
--
    Mr. Salmon. You lose.
    Mr. Fleischli [continuing]. Consistently----
    Mr. Salmon. Yes, you lose.
    Mr. Fleischli [continuing]. You lose the business and it 
goes to somebody else and if that consistently happens within a 
single country that you are importing from it is time to look 
elsewhere, and I--you know, when I first started running the 
factories in 2007 and we started building a new factory in 
2008, beautiful brand new factory in 2008, and we grew the 
business, you know, from $0 to $40 million in 3 years is not--
you know, it is not an easy thing to do.
    And then to see what is happening today and to see the mass 
exodus of the businesses is just discouraging. It really is, 
and it is saddening because, you know, the workers in 
Bangladesh are so happy--they are so happy to have jobs.
    They are so happy to work, and that the situation is such 
that, you know, they are the ones that are getting impacted the 
worst.
    Mr. Salmon. Yes, Dr. Ayres?
    Ms. Ayres. A very quick supplement to that. If you look at 
the economic data both for the garment industry and Bangladesh 
overall, despite all the political unrest, in the last year--
last year's Bangladesh fiscal year actually saw a growth in the 
garment industry by about 14 percent.
    Now, that is not going to be the case for this year and we 
are going to start seeing that data come in. So that does 
explain why if you look historically the growth hadn't been 
ticking down.
    Mr. Salmon. Got it.
    Ms. Ayres. It is now beginning to tick down so we are 
seeing that now.
    Mr. Salmon. That is very helpful.
    This has been a wonderful panel and I--did you have another 
question? I was just--I was just going to say that if there is 
any closing comments that any of you would like to make, 
questions that haven't been asked, points that need to be made, 
then you are more than willing to make them--I'm more than 
happy to have you make them.
    Mr. Kansara.
    Mr. Kansara. Thank you. In addition to the question that 
Mr. Sherman asked about the parties and I would say that the 
Hindu community also noted the severe security failings that 
had taken place by the Awami League government as well as by 
police forces in protection in the run-up to the election of 
2013 and 2014 as well as Washikur Rahman and Avijit Roy were 
killed in broad daylight with police very close nearby.
    Avijit Roy was killed at the Dhaka Book Fair and police 
were within walking distance away. And when a machete-wielding 
assailant is killing you it takes time. It is not--it is not a 
gunshot, and therefore the security forces failed. So should--
the Awami League should not simply rely on the Hindu community 
as vote bank because that is not their role.
    Their role is to protect all Bangladeshi citizens if they 
are in the government and the same with the BNP or any other 
party that it is in power.
    Mr. Salmon. Any other comments?
    Mr. Fleischli. Just a quick one. On Avijit Roy, there is 
actually a picture that I saw on the Internet where Avijit Roy 
was on the ground and the event was occurring and there was a 
police officer standing right there doing nothing--absolutely 
nothing.
    Mr. Salmon. Thank you. Ms. Curtis, did you have one----
    Ms. Curtis. Yes. I just wanted to make one last comment. It 
was raised earlier, the suggestion of declaring the Jamaat-e-
Islami a foreign terrorist organization and I think that would 
be extremely unhelpful.
    The Jamaat-e-Islami has participated in the electoral 
process. They have tended not to receive a great deal of votes. 
I think it was 4 to 5 percent in the last election that they 
ran in in 2008.
    But the point is that, certainly, those guilty of violence 
should be prosecuted but there is simply no indication that the 
Jamaat-e-Islami as a political party has engaged in terrorism--
systematic terrorism.
    Mr. Salmon. Thank you. That is helpful. Dr. Ayres.
    Ms. Ayres. A very brief ending comment: For many years I 
have always believed that Bangladesh provides a kind of living 
counterfactual to the problems that we see in a country like 
Pakistan.
    They, obviously, separated in 1971. But in the intervening 
decades Bangladesh has gone on to deliver so much for its 
citizens. It has better human development indicators on almost 
every count than Pakistan does--in fact, better than India in 
many counts as well.
    So for me this is a huge opportunity and an opportunity 
cost. I believe it is important for the United States to stay 
engaged and not use sanctions as a means of trying to teach a 
lesson but rather to try to shape the way we engage with 
Bangladesh and impress upon them how much potential they have 
and how we want to support that.
    Mr. Salmon. Would all of you agree with that idea? Okay.
    That is very helpful. You know, I want to say--I am about 
to conclude the committee--but this committee hearing was not 
intended to just pile on.
    It really is about a constructive, better way, and it is 
not to cast aspersions on a country but to liberate a people. 
It is about lifting, not pulling down. I mean, that is what we 
are trying to accomplish here.
    We are not trying to just throw rocks and criticize. What 
we are about is trying to shed some light on what the truth 
is--what is the truth beyond the spin-zone--what is the truth 
and what can America do to help improve the lives of the people 
of Bangladesh and that is what this is about.
    So thank you so much for your patience and thank you for 
your testimony, and without objection the hearing is adjourned.
    [Whereupon, at 4:10 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
